CERTIFICATE OF COMPLIANCE
Case No. 19-635
Caption: Trump v. Vance
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 7,856 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 4, 2020.

&qailll~~
Samantha Collins
Record Press, Inc.

Sworn to before me on
March 4, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 01086101366

